Audit Report




OIG-13-028
SAFETY AND SOUNDNESS: Failed Bank Review of Second
Federal Savings and Loan Association of Chicago
December 20, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                  December 20, 2012


            OIG-13-028

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                      Jeffrey Dye /s/
                                       Director, Banking Audits

            SUBJECT:                   Failed Bank Review of Second Federal Savings and Loan
                                       Association of Chicago, Chicago, Illinois


            This memorandum presents the results of our review of the failure of Second
            Federal Savings and Loan Association of Chicago (Second Federal) located in
            Chicago, Illinois, and the supervision of the bank by the Office of the Comptroller
            of the Currency (OCC) and the former Office of Thrift Supervision (OTS). OTS
            regulated Second Federal until July 21, 2011, when OCC assumed regulatory
            responsibility for federal savings associations pursuant to P.L. 111-203.

            Second Federal was established in 1923, and had three offices in Chicago and the
            adjacent suburb of Cicero, Illinois. Second Federal did not have a holding company.
            It was designated a minority depository institution (MDI) in November 2010.1 OCC
            closed Second Federal and appointed the Federal Deposit Insurance Corporation
            (FDIC) as receiver on July 20, 2012. As of March 31, 2012, Second Federal had
            approximately $199.1 million in total assets and $175.9 million in total deposits.
            As of November 30, 2012, FDIC estimated the loss to the Deposit Insurance Fund
            at $76.9 million.

            Because the loss to the Deposit Insurance Fund was less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of Second Federal that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OTS and OCC reports of

            1
              An MDI is defined as any federally insured depository institution where 51 percent or more of the
            voting stock is owned by minority individuals, or there is 51 percent minority representation on the
            board of directors. Second Federal obtained the MDI designation with the goal of acquiring funding
            from other banking institutions, which Second Federal could then count as capital for regulatory
            purposes. Second Federal was unsuccessful obtaining funds with this designation.
OIG-13-028
Page 2

examination, and (3) interviewed an OCC problem bank specialist and the
examiners-in-charge for the 2007, 2008, and 2011 examinations. We performed
our fieldwork from August to October 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Causes of Second Federal’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe and unsound condition to transact
business, (3) the bank was undercapitalized and failed to submit an acceptable
capital restoration plan, and (4) the bank was critically undercapitalized.

Second Federal’s failure was primarily caused by losses associated with three types
of high-risk loans: loans to individuals with taxpayer identification numbers (ITIN),2
stated-income residential loans, and stated-income commercial loans. Beginning in
2004, Second Federal originated and purchased a large volume of ITIN loans that
resulted in a significant concentration of 402 percent of core capital plus allowance
for loan and lease losses (ALLL) at December 2010. OTS examiners found that
bank management’s execution and oversight of this new and unproven strategy
failed to adequately address the risks related to ITIN loans. Risks associated with
ITIN loans include (1) the bank’s inability to conduct a traditional credit review for
loan applicants without social security numbers and (2) the potential increased
enforcement of immigration laws that often result in ITIN borrowers forfeiting on
their debt and returning to their countries of origin. Also, Second Federal’s
stated-income residential and stated-income commercial lending resulted in a
concentration of 246 percent of core capital plus ALLL at December 2010. These
loans were high-risk because the bank originated them without directly verifying
the borrower’s cash flow or the income-producing capacity of the underlying
properties. Second Federal’s board and management’s lack of sufficient capital

2
  ITINs are issued regardless of immigration status because both resident and nonresident aliens
may have U.S. Federal tax filing and payment responsibilities under the Internal Revenue Code. The
Internal Revenue Service issues ITINs to help individuals comply with the U.S. tax laws, and to
provide a means to process and account for tax returns and payments from those not eligible for
social security numbers. IRS Publication 1915 (Rev. 1-2012), p. 6
OIG-13-028
Page 3

planning and effective credit risk management led to loan losses which depleted
capital and ultimately caused Second Federal’s failure.


Conclusion
We determined that an in-depth review of Second Federal’s failure is warranted
based on what we found to be an unusual circumstance – the nature of the bank’s
unsafe and unsound lending practices particularly as it related to the ITIN loans.
The planned scope of our in-depth review will include, but not be limited to, the
current supervisory guidance to banks and examiners on the types of high-risk
lending that occurred at Second Federal, particularly ITIN loans. We anticipate
completing the in-depth review by no later than August 2013.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of the failure
of Second Federal; and that it has no concerns with our determination that an
in-depth review of the bank’s failure is warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-13-028

       Attachment 1
Management Response
                                                       OIG-13-028

                                                     Attachment 2
                                                       Distribution



Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
